               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Cancelled Postage Statements –
   St. Paul, MN Business Mail Entry Unit

         Management Advisory Report




                                              March 22, 2012

Report Number EN-MA-12-001
                                                                        March 22, 2012

                                           Cancelled Postage Statements – St. Paul,
                                                       MN Business Mail Entry Unit

                                                       Report Number EN-MA-12-001



IMPACT ON:
Proper processing of business mail          statement and release the mail before
postage statements impacts U.S. Postal      local EOD closeout time.
Service revenue.
                                            WHAT THE OIG RECOMMENDED:
WHY THE OIG DID THE AUDIT:                  We recommended management
Our objective was to determine whether      develop and implement a process to
postage statements were properly            periodically monitor cancelled postage
processed at the St. Paul, MN Business      statements to ensure cancellations are
Mail Entry Unit (BMEU).                     appropriate and in accordance with
                                            Postal Service policy.
WHAT THE OIG FOUND:
Unit management did not follow required     WHAT MANAGEMENT SAID:
procedures for processing postage           Management agreed with the finding
statements at the St. Paul BMEU.            and recommendation. Management is
Specifically, unit personnel were           no longer cancelling postage statements
instructed to cancel postage statements     prior to EOD reconciliation. In addition,
that could not be finalized before local    the business mail entry supervisor for
end-of-day (EOD) closeout time. We          the Northland District will review late
consider $5.7 million related to these      postage statement reporting and EOD
statements to be revenue at risk. In        reconciliation on a daily basis to ensure
addition, management did not have a         compliance. Lastly, management will
reconciliation process in place to          conduct a process review by March 30,
monitor and ensure all statements were      2012, to ensure the monitoring process
re-entered. The Postal Service has an       is still in place and supports compliance
increased risk of revenue loss due to       with Sarbanes-Oxley controls.
postage statements not being properly
processed.                                  AUDITORS’ COMMENTS:
                                            Management’s comments are
The Business Mail and Payment               responsive to the recommendation and
Technologies group initiated corrective     corrective actions should resolve the
action by issuing guidance in the           issue identified in the report.
December 22, 2011 Business Mail
Acceptance Newsletter. The guidance         Link to review the entire report
instructed unit personnel not to cancel
postage statements simply because the
unit would be unable to finalize the
March 22, 2012

MEMORANDUM FOR:            SLYVESTER BLACK
                           VICE PRESIDENT, WESTERN AREA OPERATIONS




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                   Management Advisory – Cancelled Postage Statements –
                           St. Paul, MN Business Mail Entry Unit
                           (Report Number EN-MA-12-001)

This report presents the results of an issue we identified at the St. Paul, MN Business
Mail Entry Unit during our review of business mail acceptance controls (Project Number
12RG009EN001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, acting
director, Retail, Business, and International, or me at 703-248-2100.

Attachments

cc: Pritha N. Mehra
    Steven R. Phelps
    Corporate Audit and Response Management
Cancelled Postage Statements –                                                                                     EN-MA-12-001
St. Paul, MN Business Mail Entry Unit



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Cancelled Postage Statements ....................................................................................... 1

Recommendation ............................................................................................................ 2

Management’s Comments .............................................................................................. 2

Evaluation of Management’s Comments ......................................................................... 2

Appendix A: Additional Information ................................................................................. 3

   Background ................................................................................................................. 3

   Objective, Scope, and Methodology ............................................................................ 3

   Prior Audit Coverage ................................................................................................... 4

Appendix B: Other Impact ............................................................................................... 6

Appendix C: Management’s Comments .......................................................................... 7
Cancelled Postage Statements –                                                                      EN-MA-12-001
 St. Paul, MN Business Mail Entry Unit



Introduction

This report presents the results of our review of postage statement compliance at the
St. Paul, MN Business Mail Entry Unit (BMEU) (Project Number 12RG009EN001). The
objective of our review was to determine whether postage statements were properly
processed at the St. Paul BMEU. This review was self-initiated and addressed financial
and operational risks. See Appendix A for additional information about this review.

Management designed business mail acceptance (BMA) controls1 to confirm that all
revenue is collected and recognized for business mail transactions on the day mail is
received. Postage statement processing is one of the key Sarbanes-Oxley (SOX)2
financial controls. The timely recognition of business mail revenue ensures that the U.S.
Postal Service’s financial statements accurately reflect operating results.

Conclusion

We determined, through discussions with unit personnel and review of transactions, that
postage statements were improperly processed and cancelled.3 As a result, the Postal
Service has an increased risk of revenue loss. We consider $5.7 million related to these
statements to be revenue at risk (see Appendix B for Other Impact).

Cancelled Postage Statements

The unit did not follow required procedures for processing business mail postage
statements. Specifically, unit management instructed employees to cancel postage
statements still listed on the PostalOne! Dashboard4 at the end-of-day (EOD) and
re-enter the statements after daily closeout time to avoid appearing on the Late Postage
Statement Report.5 Additionally, management did not have a reconciliation process in
place to ensure all inappropriately cancelled statements were re-entered in PostalOne!.
The Postal Service has an increased risk of revenue loss due to the improper
processing of postage statements. In addition, the timely recognition of business mail
revenue ensures Postal Service financial statements accurately reflect operating
results.


1
  BMA controls reviewed included mail check-in, verification, placarding, postage statement processing and
finalization, and EOD reconciliation.
2
  The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to comply with Section 404 of
the SOX Act of 2002.
3
  A postage statement is typically cancelled because of a transaction error, mailing recall, or mail not presented.
Acceptance employees are required to contact the mailer before cancelling the statement. Postal Service policy does
not specifically state how to handle statements that are cancelled for inappropriate reasons.
4
  The Dashboard is a portal on PostalOne! for accessing mailing information. Mailing information and/or postage
statements can be submitted to the Dashboard via manual entry by acceptance employees or electronic entry by
mailers.
5
  Unit performance scores are negatively impacted when postage statements are processed after EOD closeout time
and appear on the Late Postage Statement Report.
                                                           1
Cancelled Postage Statements –                                                               EN-MA-12-001
 St. Paul, MN Business Mail Entry Unit


From October 1 through December 27, 2011, acceptance clerks at the unit cancelled
1,916 of 34,734 postage statements in PostalOne!, totaling $5.7 million. Unit
management could not identify statements that were cancelled as a means to avoid
appearing on the Late Postage Statement Report versus those cancelled for valid
reasons. Therefore, we consider the entire $5.7 million related to these statements to be
revenue at risk.

We notified the Postal Service Mail Entry and Payment Technologies group of this
matter during our review, and they initiated corrective action by issuing guidance in the
December 22, 2011, BMA Newsletter. Unit personnel were instructed not to cancel
postage statements simply because the unit would be unable to finalize the statement
and release the mail before local EOD closeout time.6 The newsletter also indicated
such action is prohibited and considered a serious SOX infraction.

Recommendation

We recommend the vice president, Western Area Operations:

1. Develop and implement a process to monitor cancelled postage statements to
   ensure cancellations are appropriate and in accordance with Postal Service policy.

Management’s Comments

Management agrees with the finding and recommendation and is no longer cancelling
postage statements prior to EOD reconciliation. In addition, the business mail entry
supervisor for the Northland District will review late postage statement reporting and
EOD reconciliation on a daily basis to ensure compliance. Lastly, management will
conduct a process review by March 30, 2012, to ensure the monitoring process is still in
place and supports compliance with SOX controls.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issue identified in the report.




6
 Handbook DM-109, Business Mail Acceptance, Section 3-4.4, March 2010 and the BMA Newsletter, December 22,
2011.


                                                    2
Cancelled Postage Statements –                                                                      EN-MA-12-001
 St. Paul, MN Business Mail Entry Unit



                                  Appendix A: Additional Information

Background

Business mail is one of the most significant revenue sources for the Postal Service. The
Mail Entry and Payment Technologies group is responsible for implementing policies
surrounding the acceptance of business mailings 7 at more than 2,750 locations, 1,900
of which are in postal facilities and 850 of which are at mailer plants. This group
oversees the processing of more than 13.7 million business mailings annually, which
represents approximately 73 percent of the total Postal Service mail volume.

Customers presenting business mailings are required to check in with an acceptance
employee and provide all required documentation, including postage statements. This
ensures that no unidentified mailings are found in the acceptance unit or on the loading
dock without an acceptance employee’s knowledge. All mailings must be staged 8 and
clearly marked/placarded to identify the status or phase of the mailing within the BMA
process. Postal Service employees are required to place mailings that are not properly
checked in on hold and enter the status of the mailing into PostalOne!. BMEU
employees are required to immediately notify the mailer and BMEU management about
any mailings that are held. BMEU management conducts an EOD reconciliation to
monitor the resolution of such mailings. In addition, any cancellation of a postage
statement typically occurs as a result of a transaction error, a mailing recall, or mail that
was not presented. Acceptance employees are required to contact the mailer before
cancelling the statement.

Objective, Scope, and Methodology

The objective of our review was to determine whether postage statements were
properly processed at the St. Paul BMEU. To accomplish our objective, we reviewed
existing policies and procedures related to BMA and interviewed key Postal Service
officials. We conducted observations from December 5-9, 2011, at the St. Paul, MN
BMEU and performed an in-depth analysis of its key financial controls. We compared
daily acceptance activities to procedural manuals and BMA flowcharts.

We conducted this review from October 2011 through March 2012, in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on February 22, 2012, and included their comments where appropriate.

We assessed the reliability of data through analytical tests and discussions with Postal
Service managers and determined that the data were sufficiently reliable for the
purposes of this report.


7
    Business mailings typically enter the mailstream through BMEUs or detached mail units (DMUs).
8
    Staged means mail is properly prepared and labeled for the next processing phase.


                                                          3
     Cancelled Postage Statements –                                                 EN-MA-12-001
      St. Paul, MN Business Mail Entry Unit


     Prior Audit Coverage

                                                 Final
                                                Report     Monetary
  Report Title          Report Number            Date        Impact         Report Results
Mail Verification       MS-AR-12-002          1/12/2012   $10.3       The Postal Service
Procedures at                                             million     accepted mailings that did
Detached Mail                                                         not have sufficient postage
Units                                                                 or did not meet Postal
                                                                      Service specifications.
                                                                      Management concurred
                                                                      with the recommendations
                                                                      and monetary impact and
                                                                      agreed to develop
                                                                      customer online support
                                                                      and field staff tools,
                                                                      continue field staff training,
                                                                      and develop a process of
                                                                      notifying managers of
                                                                      override Mail Evaluation
                                                                      Readability Lookup
                                                                      INstrument results.
Fiscal Year 2010        FF-AR-11-006          1/20/2011   None        The Postal Service did not
Financial                                                             comply with key financial
Installation Audit                                                    reporting controls for BMA
– Business Mail                                                       and verification processes
Entry Units                                                           and procedures.
                                                                      Throughout the year the
                                                                      Postal Service
                                                                      implemented various
                                                                      actions to improve
                                                                      compliance. As a result,
                                                                      the Postal Service’s level
                                                                      of compliance with these
                                                                      key controls increased
                                                                      toward the end of the fiscal
                                                                      year. Management did not
                                                                      specifically agree or
                                                                      disagree with the
                                                                      conclusions in the report.




                                                     4
    Cancelled Postage Statements –                                                   EN-MA-12-001
     St. Paul, MN Business Mail Entry Unit


Business Mail          MS-AR-10-005          8/30/2010   $55 million   We identified multiple mail
Entry Units Mail                                                       verification and Mailing
Verification                                                           Evaluation and Readability
Procedures                                                             Lookup INstrument issues
                                                                       at two BMEUs.
                                                                       Management agreed with
                                                                       the findings and
                                                                       recommendations.
Plant-Verified         MS-AR-10-001          2/9/2010    None          Controls were not
Drop Shipment                                                          adequate to prevent
Controls                                                               mailers from adding mail
                                                                       en route to the destination
                                                                       Postal Service facilities
                                                                       and to ensure the Postal
                                                                       Service received all
                                                                       revenue due from drop
                                                                       shipments. Plant-Verified
                                                                       Drop Shipment mailers
                                                                       can add mail en route,
                                                                       after verification at the
                                                                       BMEU, DMU, or other
                                                                       origin location, but before it
                                                                       reaches the destination
                                                                       Postal Service facility. As a
                                                                       result, the Postal Service
                                                                       is at risk of significant
                                                                       revenue loss.
                                                                       Management concurred
                                                                       with two of four
                                                                       recommendations and is
                                                                       developing training for
                                                                       verification employees at
                                                                       destination drop shipment
                                                                       locations and agreed to
                                                                       update the drop shipment
                                                                       criteria.




                                                    5
Cancelled Postage Statements –                                                                         EN-MA-12-001
 St. Paul, MN Business Mail Entry Unit


                                        Appendix B: Other Impact

                 Finding                      Impact Category                               Amount
                Cancelled             Revenue at Risk9                                     $5,724,713
                 Postage
                Statements




9
 Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).


                                                           6
Cancelled Postage Statements –                                  EN-MA-12-001
 St. Paul, MN Business Mail Entry Unit


                            Appendix C: Management’s Comments




                                            7
